CONGRESSIONAL RESPONSE
       REPORT

       Compliance with
    Employment Evidence
 Requirements for F-1 Students

          A-08-06-16075




            July 2006
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                            SOCIAL SECURITY

July 20, 2006

The Honorable Susan M. Collins
Chairwoman, Committee on
 Homeland Security and Governmental Affairs
United States Senate
Washington, D.C. 20510

Dear Madam Chairwoman:

At a June 28, 2004 briefing, representatives from your staff requested that we conduct a
survey and audit of educational institutions’ policies and practices of issuing work
authorization letters to help foreign students obtain a Social Security number (SSN).
The objectives of our survey were to determine selected educational institutions’
policies and practices for (1) issuing work authorization letters to foreign students and
(2) monitoring the enrollment, attendance and employment of these students.
Additionally, we reviewed actions the Social Security Administration (SSA) took to
strengthen controls over assigning SSNs to foreign students. We issued the survey
report, Congressional Response Report: Survey of Educational Institutions’ Issuance of
Work Authorization Documents to Foreign Students (A-08-04-24102) on
September 30, 2004 and planned to issue an audit report by December 31, 2004.
However, SSA implemented a new regulation that affected our audit objectives.
Therefore, we postponed the audit to cover the educational institutions’ fall 2005
enrollment period to allow SSA to fully implement the new regulation.

The enclosed report summarizes the results of our audit. Our audit objectives were to
(1) determine whether foreign students receiving SSNs based on work authorization
letters from schools and documentation of promised or actual employment enrolled in
and attended classes and are employed on-campus and (2) identify vulnerabilities in the
process.

To ensure SSA is aware of the information provided to your office, we are forwarding a
copy of this report to the Agency.
Page 2 – The Honorable Susan M. Collins


If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact H. Douglas Cunningham, Assistant Inspector General for
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,


                                                S
                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Jo Anne B. Barnhart
                                                                           Background
OBJECTIVES
Our objectives were to (1) determine whether foreign students receiving Social Security
numbers (SSNs) based on work authorization letters from schools and documentation
of promised or actual employment enrolled in and attended classes and were employed
on-campus and (2) identify vulnerabilities in the process. This audit is the second part
of a request from the Senate Committee on Homeland Security and Governmental
Affairs (Committee).

At a June 28, 2004 briefing, Committee staff members requested that we conduct a
survey and audit of educational institutions’ policies and practices of issuing work
authorization letters to help foreign students obtain an SSN. The objectives of our
survey were to determine selected educational institutions’ policies and practices for
(1) issuing work authorization letters to foreign students and (2) monitoring the
enrollment, attendance and employment of these students. Additionally, we reviewed
actions the Social Security Administration (SSA) took to strengthen controls over
assigning SSNs to foreign students. We issued the survey report, Congressional
Response Report: Survey of Educational Institutions’ Issuance of Work Authorization
Documents to Foreign Students (A-08-04-24102) on September 30, 2004 and planned
to issue our audit report by December 31, 2004. However, SSA implemented a new
regulation that affected our audit objectives. Therefore, we postponed the audit to cover
the educational institutions’ fall 2005 enrollment period to allow SSA to fully implement
the new regulation.

BACKGROUND
To study in the United States, a foreign student must apply for admission at a school
approved by the Department of Homeland Security (DHS).1 Upon acceptance, relevant
student information is recorded in DHS’ Student and Exchange Visitor Information
System2 and a Form I-20, Certificate of Eligibility for Nonimmigrant (F-1) Student Status,

1
  To be eligible to accept nonimmigrant students, educational institutions must be approved by DHS.
Generally, schools must submit a petition to DHS and prove it (1) is a bona fide school; (2) is an
established institution of learning or other recognized place of study; (3) possesses the necessary
facilities, personnel, and finances to conduct instruction in recognized courses; and (4) is, in fact,
engaged in instruction in those courses. Additionally, an authorized representative of the petitioner may
be required to appear in person before an immigration officer prior to the approval. Further information
can be found in 8 C.F.R. § 214.3.
2
 The Student and Exchange Visitor Information System is an internet-based system that allows
educational institutions, the United States Citizenship and Immigration Services, Immigration and
Customs Enforcement, Customs and Border Protection and U.S. Consulates to track, monitor, access
and exchange the most accurate and current data on the visa status of international students and their
dependents.

Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)                           1
 is sent to the student. A copy of the Form I-20 is submitted with the student visa
application to an Embassy or Consulate, where it is reviewed and approved by
Department of State personnel. With the visa, passport, and Form I-20, the student
travels to a U.S. port of entry where DHS determines whether the student is admitted or
denied admission.3 Students who are admitted proceed to their school.

Almost 600,000 foreign students were enrolled in educational institutions in the United
States during the 2004-2005 academic year. As in our prior survey, our audit focused
on students with F-1 classifications.4 We elected to do so because F-1 foreign students
are unique in that they are eligible to work on campus without obtaining specific
approval from DHS. Instead, DHS requires that the school ensure the F-1 student is
attending classes full-time and is in good academic standing. If so, the student is
eligible to work on campus up to 20 hours per week while school is in session.

Because the SSN has become a de facto identifier nationwide, the number is key to
social, legal, and financial assimilation in this country, not simply an employment
requirement. Foreign students are often asked for their SSN when seeking such basic
services as housing, cellular telephones and utilities. As a result, many foreign students
believe they need an SSN to fully function in U.S. society.

To obtain an SSN, students must provide SSA evidence of age, identity, legal
work-authorized alien status and enrollment in a DHS-approved educational institution.5
Additionally, effective October 13, 2004, F-1 students who do not have a DHS
Employment Authorization Document or authorization for curricular practical training
must provide evidence of on-campus work authorization and verification that the student
has secured employment or a promise of employment before SSA will assign an SSN.6

SSA does not place an expiration date on any SSN card and the SSN is never deleted
or reassigned to another person. As such, once assigned, an SSN is associated with
the numberholder throughout and beyond his or her life—in SSA records. SSN cards
for F-1 students are annotated with the legend “Valid for Work Only With DHS
Authorization.” While current law does not require that a student (or any other
numberholder) present the actual SSN card to an employer—or any other entity from
whom the numberholder is attempting to obtain services (for example, credit card

3
  Before SSA approves an SSN application, the Agency examines and evaluates all evidentiary
documents submitted and verifies the student’s immigration status with DHS. However, SSA is not
required to independently consult the Government’s terrorist watch lists before assigning an SSN.
Rather, SSA relies on the Department of State and DHS to determine who is granted or denied a visa and
entry into the United States—as those functions, by law, belong to those agencies, not SSA.
4
 The F-1 classification includes academic students in colleges, universities, seminaries, conservatories,
academic high schools, other academic institutions and language schools.
5
  SSA maintains a searchable database of DHS-approved schools, which field office staff use when
processing an F-1 student’s SSN application to ensure the student is attending a DHS-approved school.
6
    20 C.F.R. § 422.107(e)(2).

Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)                           2
 companies and banks), some employers may require them to do so as part of the hiring
process. Accordingly, an F-1 student may obtain an SSN and continue to use it to work,
obtain credit or conduct other business in the United States after their DHS
authorization to be in the country has expired.

To accomplish our audit objectives, we identified 24,504 F-1 students from
193 countries whom SSA assigned original SSNs from July 15 through
September 30, 2005 (see Appendix A). We then selected a random sample of
250 students representing 59 countries and contacted their respective schools to verify
their attendance and work status (see Appendix B). The schools varied in size from
large academic institutions to small language schools. From the respective schools, we
requested information regarding the sampled F-1 students’ (1) enrollment status,
(2) start date of on-campus employment, and (3) type of job in which the student was
employed. We based our conclusions on the responses provided by the schools and
any necessary follow-up discussions. We also solicited information from SSA regional
offices about their experiences in assigning SSNs to F-1 students. Additional
information regarding our scope and methodology is provided in Appendix C.




Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)     3
                                                         Results of Review
We are encouraged that schools reported 96 percent of the students in our sample were
enrolled in classes and working on campus. We were also encouraged by the positive
feedback from SSA regional offices regarding the implementation of the requirement for
F-1 students to provide employment documentation. However, we identified situations
that demonstrated the process remained vulnerable to misuse by some students and
schools. Based on our sample review and field office reports, we identified potential
problems with (1) students accepting positions on campus but working only 1 or 2 days
and (2) some schools providing employment documentation with no intention of hiring
the student.

MOST F-1 STUDENTS COMPLIED WITH POLICIES TO
OBTAIN AN SSN
Of the 250 F-1 students for whom we attempted to verify attendance and work status,
240 (96 percent) either accepted or were promised employment on campus—as
required by SSA policy. According to their respective schools, 9 (3.6 percent) of the
250 F-1 students in our sample were not employed.1 Additionally, we were unable to
obtain the school’s name for one F-1 student from SSA information.2 Finally, for the
249 F-1 students whose schools we contacted, all were enrolled.

As a result, of the 24,504 F-1 students whom SSA assigned original SSNs from
July 15 through September 30, 2005, we estimate that about 23,524 were enrolled in
school and accepted or were promised employment on campus. We estimate
approximately 882 F-1 students were also enrolled in school but were not actually
employed and therefore may have obtained original SSNs for purposes other than
on-campus employment.

Based on the information provided by the schools, we categorized the students’
on-campus employment into six categories. About 46 percent of the F-1 students in our
sample have some type of teaching assistantship. These students receive stipends in

1
  Originally, 13 schools reported to us that an F-1 student in our sample was not employed on campus.
However, after further review by our Office of Investigations, the responsible schools revised their
responses for four of these students and confirmed that they actually were employed on campus.
2
 When processing the SSN application for this student, the field office employee did not document the
name of the educational institution, as required by SSA POMS section RM 00203.470(L.)(7.)(e.).




Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)                       4
lieu of pay; however, the portion of the stipend applied to living expenses is taxable as
income. Other popular employment among F-1 students included working in food
services, working at the library or tutoring.




Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)           5
                     Figure 1: Types of Employment Reported for F-1 Students


                                               6
                                     11 10
                                                                             Assistantship
                               33                                            Other
                                                                  115        Food Service
                                                                             Library
                                                                             Tutor
                                                                             Job Offer

                                    65



Of the 250 F-1 students in the sample, 108 (43 percent) acquired drivers’ licenses or
State identification cards. Additionally, of the nine students reported unemployed by
their respective schools, seven (78 percent) acquired drivers’ licenses or State
identification cards.

Additional Information on the Nine Schools who Reported an Unemployed
Student

The nine unemployed students attended a variety of academic and technical/English as
a second language (ESL) schools. Six schools were traditional academic schools, and
three provided technical and/or English as a second language certificate programs.

For the nine students who were unemployed, several school representatives expressed
surprise that the students obtained an SSN because the school did not provide the
student documentation for work authorization or employment verification. It appears
SSA processed some applications for SSNs without requiring that the student provide
all the appropriate documentation. For example, one school representative reported
giving a student a document stating that, based on his F-1 classification, he was
authorized to work on campus. However, the representative did not provide the student
necessary evidence of actual or offered employment. She supplied the authorization
document so the student could get a rejection letter1 from SSA to take to the
Department of Motor Vehicles and apply for a driver’s license.



1
 Some State Departments of Motor Vehicles require a letter from SSA stating that the individual is not
eligible to obtain an SSN before they will allow the individual to obtain a driver’s license. For the
purposes of our audit, we referred to such notices as “rejection letters.”

Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)                        6
Our Office of Investigations further analyzed these nine F-1 students. This expanded
analysis included inquiries of SSA’s earnings data, additional contacts with the schools,
interviews of SSA employees who processed the SSN applications, and, in some cases,
interviews with the students.

The expanded review confirmed that six of the students were not employed on campus.
Special Agents confiscated two SSN cards during student interviews; however, no fraud
was discovered. One school inappropriately provided documentation when the student
applied for employment. The school neither promised the student employment nor
employed the student. In other cases, it appears SSA did not follow procedures when
processing the SSN applications. We could not determine which party was at fault in
two cases. Investigations are still in progress for the remaining three students.

STUDENTS MAY HAVE CAPITALIZED ON VULNERABILITIES
IN THE PROCESS
Even though SSA strengthened the F-1 enumeration process through its more stringent
requirements, it appears some F-1 students may have taken advantage of
vulnerabilities remaining in the process.

We received several reports from schools responding to our sample, as well as SSA
field offices, regarding students working at jobs for a short period of time (that is, 1 or
2 days) or not starting work at all. The respondents believed the F-1 students obtained
offers of employment simply to qualify for an SSN but had no intention of starting or
continuing to work on campus. For example, at one school, an F-1 student worked in
Media Services for 1 day. At another school, a student worked in the bookstore for
3 days. Additionally, after reviewing an allegation received from 1 of the SSA field
offices regarding a school in our universe, we noted that, although the school posted
earnings for 43 of the 45 F-1 students who obtained SSNs during our audit period,
27 (63 percent) had total wages of only $5.15—the equivalent of 1 hour of work.

There were also reports that students decided not to accept job offers after confirming
their class schedules. One school representative expressed concern that this trend will
adversely affect foreign students who need to work on campus because employers will
stop offering foreign students jobs.

OPPORTUNITIES EXIST FOR SCHOOLS TO FACILITATE SSN
ATTAINMENT
Although not identified in our sample of 250 F-1 students, we have received anecdotal
information from our Office of Investigations and input from SSA field offices that
suggests that some schools may have facilitated F-1 students’ attainment of SSNs by
providing and confirming employment—with no real intent to hire the student. For
example, several field offices reported that students admitted they had no plans to work
once they obtained an SSN. Appropriately, upon hearing these admissions, field office
employees denied the SSN applications. However, in some instances, these students

Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)             7
then returned to the field office with the required documentation from their school stating
they were working on campus. Field office personnel also reported concerns that some
schools were providing evidence of employment to a large number of F-1 students even
though the schools were small and the number of on-campus jobs seemed
disproportionate.

For example, one small technical training school provided work documentation for
88 F-1 students during our audit period. Before our audit, the local field office
recognized this school was providing documentation for an unusually large number of
on-campus positions and communicated its concern to us. Accordingly, we opened an
investigation into this educational institution’s practices. Preliminary results indicate the
subject school advertises in immigration circulars/newspapers that it will help
immigrants obtain driver’s licenses and SSNs but does not include information about the
school or its programs in the advertisements. The school allegedly charges students
$3,000 for tuition. However, the tuition may be in exchange for documentation
evidencing work authorization and actual or offered employment. Yet, the school has
no intent to hire the individuals or ensure they attend classes. In fact, quarterly earnings
records for some of the schools purported students indicated they were working off
campus in places such as beauty salons and restaurants. Four of the schools’ F-1
students were included in our sample. In each case, the school verified the students
were enrolled in classes and working on campus. However, we did not independently
verify this information because the activities of this school are still under investigation.

We also found that certain types of jobs, such as tutors, can be vulnerable to abuse.
School representatives for two students in our sample reported they employed the
students as tutors. However, the school representatives added the students had not
worked because there was no demand in the subjects they were assigned. For
example, one school representative reported the student had not begun work because
no one had requested a Physics tutor.




Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)          8
                                                               Conclusions
We are encouraged by our sample results and the positive feedback from SSA field
offices regarding schools’ and students’ compliance with F-1 enumeration regulations.
However, we remain concerned that students and schools may manipulate the process
to inappropriately obtain SSNs. As such, we encourage Congress and SSA to closely
monitor this program. If Congress continues to believe F-1 students should only be
assigned SSNs in limited circumstances, additional measures may be warranted. We
also believe more should be done to limit the use of the SSN to only legally sanctioned
purposes to alleviate the pressure for students to obtain SSNs to fully function in our
society. We recognize that limiting the SSN’s use in society may require legislation.
Because we identified situations that demonstrated the process remained vulnerable to
misuse by some students and schools, we plan to conduct additional work to assess
F-1 students’ use of SSNs and identify schools that may have facilitated F-1 students’
attainment of SSNs by providing employment documentation with no intention of hiring
them.




Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)         9
                                          Appendices
APPENDIX A – Countries of Origin for 24,504 F-1 Students Assigned Social Security
             Numbers (July 15 - September 30, 2005)

APPENDIX B – Countries of Origin for 250 F-1 Students in the Office of the Inspector
             General Sample (July 15 – September 30, 2005)

APPENDIX C – Scope and Methodology




Compliance with Employment Evidence Requirements for F-1 Students (A-08-06-16075)
                                                   Appendix A


Countries of Origin for 24,504 F-1 Students Assigned Social
    Security Numbers (July 15 – September 30, 2005)

      Country Name                 Number of F-1 Students
            India                          7012
           China                           4209
       South Korea                         1375
          Canada                            705
           Taiwan                           653
           Japan                            632
           Nepal                            573
           Turkey                           520
           Kenya                            408
           Mexico                           365
         Germany                            362
           Poland                           286
            Brazil                          268
           Nigeria                          260
         Colombia                           259
          Vietnam                           222
      United Kingdom                        219
          Romania                           205
         Indonesia                          196
          Jamaica                           191
           France                           189
          Thailand                          184
           Russia                           174
          Bulgaria                          171
        Philippines                         154
             Iran                           152
          Pakistan                          146
         Sri Lanka                          141
           Ghana                            136
            Peru                            136
          Malaysia                          129
             Italy                          106
        Venezuela                           106
       Bangladesh                           103


                           A-1
Countries of Origin for 24,504 F-1 Students Assigned Social
    Security Numbers (July 15 – September 30, 2005)

      Country Name                 Number of F-1 Students
            Spain                          101
   Trinidad and Tobago                      96
          Ecuador                           95
            Israel                          89
          Ukraine                           85
           Greece                           84
         Mongolia                           82
        Hong Kong                           77
         Cameroon                           75
         Singapore                          75
          Ethiopia                          70
         Argentina                          68
        South Africa                        66
         Zimbabwe                           62
            Chile                           60
          Lebanon                           59
          Australia                         58
           Zambia                           58
        North Korea                         56
         Tanzania                           56
         Bahamas                            54
            Egypt                           54
      Czech Republic                        53
           Jordan                           52
          Sweden                            52
           Serbia                           48
       Saudi Arabia                         44
          Morocco                           43
        Netherlands                         40
        Uzbekistan                          40
   Dominican Republic                       39
          Uganda                            39
           Bolivia                          38
           Kuwait                           38
         Honduras                           37
          Hungary                           34
        Costa Rica                          32


                           A-2
Countries of Origin for 24,504 F-1 Students Assigned Social
    Security Numbers (July 15 – September 30, 2005)

      Country Name                 Number of F-1 Students
             Haiti                          32
   United Arab Emirates                     32
        Guatemala                           31
       New Zealand                          31
        Switzerland                         30
           Croatia                          29
           Austria                          27
          Slovakia                          27
          Lithuania                         26
          Portugal                          26
         Myanmar                            25
           Norway                           25
          Panama                            24
          Uruguay                           24
          Senegal                           23
          Belgium                           22
         Cambodia                           22
        Kazakhstan                          22
           Albania                          21
           Congo                            21
          Gambia                            20
          Georgia                           20
        Ivory Coast                         20
        Yugoslavia                          20
        Afghanistan                         19
          Armenia                           19
  Bosnia and Herzegovina                    19
          St. Lucia                         19
         Tajikistan                         19
          Guyana                            18
          Moldova                           18
         Azerbaijan                         17
           Belarus                          17
           Ireland                          17
        El Salvador                         17
          Grenada                           17
            Niger                           17


                           A-3
Countries of Origin for 24,504 F-1 Students Assigned Social
    Security Numbers (July 15 – September 30, 2005)

      Country Name                 Number of F-1 Students
         Denmark                            16
           Cyprus                           15
           Latvia                           15
         Nicaragua                          15
         Paraguay                           15
            Syria                           15
           Belize                           14
         Barbados                           13
           Benin                            13
    St. Kitts and Nevis                     13
       Burkina Faso                         13
         Mauritius                          13
          Estonia                           12
          Iceland                           11
             Iraq                           11
           Malawi                           11
        Macedonia                           11
            Mali                            11
       Sierra Leone                         11
       Turkmenistan                         11
   Antigua and Barbuda                       9
         Dominica                            9
           Eritrea                           9
          Rwanda                             9
          Finland                            8
        Kyrgyzstan                           8
        Montenegro                           8
   Netherlands Antilles                      8
          Tunisia                            8
           Algeria                           7
           Liberia                           7
           Oman                              7
            Togo                             7
          Bahrain                            6
         Botswana                            6
           Bhutan                            6
Democratic Republic of Congo                 6


                           A-4
Countries of Origin for 24,504 F-1 Students Assigned Social
    Security Numbers (July 15 – September 30, 2005)

       Country Name                Number of F-1 Students
            Gabon                            6
            Qatar                            6
St. Vincent and Grenadines                   6
      Cayman Islands                         5
            Guinea                           5
             Libya                           5
            Macau                            5
         Mozambique                          5
          Swaziland                          5
            Angola                           4
            Brunei                           4
 Central African Republic                    4
           Lesotho                           4
            Sudan                            4
            Yemen                            4
            Aruba                            3
             Chad                            3
             Cuba                            3
              Fiji                           3
           Slovenia                          3
           Ukrania                           3
    British Virgin Islands                   3
          West Bank                          3
           Anguilla                          2
           Bermuda                           2
          Martinique                         2
           Monaco                            2
             Niue                            2
    Papua New Guinea                         2
      Southwest Africa                       2
           Burundi                           1
         Cape Verde                          1
     Equatorial Guinea                       1
       French Guiana                         1
     French Polynesia                        1
         Guadeloupe                          1
          Gaza Strip                         1


                             A-5
Countries of Origin for 24,504 F-1 Students Assigned Social
    Security Numbers (July 15 – September 30, 2005)

      Country Name                 Number of F-1 Students
          Kiribati                           1
       Madagascar                            1
         Mayotte                             1
          Malta                              1
         Vanuatu                             1
      Spratly Islands                        1
        Seychelles                           1
         Somalia                             1
 Turks and Caicos Islands                    1
          Tonga                              1
       Vatican City                          1




                            A-6
                                                     Appendix B


Countries of Origin for 250 F-1 Students in the Office of the
                Inspector General Sample
              (July 15 – September 30, 2005)


          Country                     Number of Students
            India                            73
           China                             40
           Korea                             12
           Japan                              8
           Nepal                              7
           Turkey                             7
          Canada                              6
           Kenya                              6
           Poland                             6
           Taiwan                             6
          Vietnam                             5
            Brazil                            4
           France                             4
           Mexico                             4
         Germany                              3
           Nigeria                            3
          Romania                             3
      United Kingdom                          3
           Russia                             3
         Cambodia                             2
         Indonesia                            2
             Italy                            2
          Jamaica                             2
          Malaysia                            2
         Tanzania                             2
   Trinidad and Tobago                        2
         Argentina                            1
          Australia                           1
      Belgian Congo                           1
           Bolivia                            1
           Brunei                             1
         Cameroon                             1
            Chile                             1
         Columbia                             1
          Denmark                             1


                            B-1
Countries of Origin for 250 F-1 Students in the Office of the
                Inspector General Sample
              (July 15 – September 30, 2005)


            Country                   Number of Students
            Ecuador                           1
            Gambia                            1
            Greece                            1
            Guyana                            1
          Hong Kong                           1
            Hungary                           1
          Netherlands                         1
         New Zealand                          1
           Nicaragua                          1
            Pakistan                          1
          Philippines                         1
            Portugal                          1
           Singapore                          1
St. Christopher-Nevis-Anguilla                1
           St. Lucia                          1
            Thailand                          1
            Uganda                            1
          Yugoslavia                          1
            Armenia                           1
             Bosnia                           1
           Myanmar                            1
        Czeck Republic                        1
            Croatia                           1
           Lebanon                            1




                             B-2
                                                                        Appendix C

Scope and Methodology
To address concerns expressed by Senate Committee on Homeland Security and
Governmental Affairs staff, which were related to the potential that some educational
institutions are providing students with work authorization letters and documentation of
employment even though these institutions do not intend to hire the students for
on-campus employment, we:

•   Reviewed the Social Security Administration's (SSA) regulations governing the
    issuance of Social Security numbers (SSN) to foreign academic students in the F-1
    classification.

•   Identified 24,504 F-1 students assigned SSNs from July 15 through
    September 30, 2005. We randomly selected 250 students and verified enrollment
    and employment status with their respective schools. For each student in the
    sample, we requested their employment start date and a brief job description.

•   Requested information from regional offices to gain a perspective on field offices’
    experiences with educational institutions providing work authorization letters and/or
    suspect evidence of actual or offered on-campus employment to improperly facilitate
    F-1 students' attainment of SSNs.

•   Interviewed selected school, SSA field office and SSA Office of the Inspector
    General, Office of Investigations, representatives to clarify information regarding
    educational institutions providing work authorization evidence to facilitate F-1
    students' attainment of SSNs.

Applications for SSNs are processed in the field offices, which are under the Deputy
Commissioner for Operations. We performed our work in Birmingham, Alabama. The
data used for this audit were sufficiently reliable to meet our audit objective. We limited
our review of internal controls over enumeration of F-1 students to obtaining an
understanding of the regulations and policies governing the process and performing the
steps identified above. We conducted our audit from December 2005 through
March 2006 in accordance with generally accepted government auditing standards.




                                            C-1
Tables 1 and 2 show our sample size, results, and appraisals for F-1 students who were
enrolled in school and accepted or were promised on campus employment and F-1
students who were enrolled in school and were not employed or offered employment on
campus.

Table 1: Results and Projection for Students with Employment or Promised Employment

                        SAMPLE ATTRIBUTE APPRAISAL
 Total population of original SSNs assigned to F-1 students from              24,504
 July 15 through September 30, 2005
 Sample Size                                                                     250

 Number of instances in sample where F-1 students were enrolled
 and accepted or were promised on campus employment                              240
 Estimate of instances in population where F-1 students were enrolled
 and accepted or were promised on campus employment                           23,524
 Projection lower limit                                                       22,868
 Projection upper limit                                                       23,966

Projections made at the 90-percent confidence level.

Table 2: Results and Projection for Students Who Were Not Employed

                        SAMPLE ATTRIBUTE APPRAISAL
 Total population of original SSNs assigned to F-1 students from              24,504
 July 15 through September 30, 2005
 Sample Size                                                                     250

 Number of instances in sample where F-1 students were enrolled but
 were not employed on campus                                                          9
 Estimate of instances in population where F-1 students were enrolled
 but were not employed or offered employment on campus                           882
 Projection lower limit                                                          465
 Projection upper limit                                                        1,515

Projections made at the 90-percent confidence level.




                                            C-2
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
